No. 19A247
________________________________

In the Supreme Court of the United States
________________________________
NELIDA MARIBEL DIAZ JUAREZ AND NALBERTA BRAVO DIAZ,
Petitioners,
v.
COMMONWEALTH OF KENTUCKY, CABINET OF HEALTH AND FAMILY SERVICES
Respondents.
________________________________
APPLICATION TO FURTHER EXTEND TIME TO FILE A PETITION FOR A
WRIT OF CERTIORARI FROM OCTOBER 11, 2019 TO NOVEMBER 8, 2019
________________________________
To the Honorable Justice Sotomayor, as Circuit Justice for the Sixth Circuit
and the Commonwealth of Kentucky:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30,
petitioners Nelida Maribel Diaz Juarez and Nalberta Bravo Diaz respectfully request
that the time to file a petition for a writ of certiorari in this case be further extended
for 28 days to and including November 8, 2019. The Supreme Court of Kentucky
rendered its opinion on June 13, 2019. The petition accordingly was initially due on
September 11, 2019. On September 4, 2019, your Honor granted a timely first
application for an extension of time (enclosed as App. A, infra) of 30 days to October
11, 2019. Petitioners are filing this application for a second extension more than ten
days before that date. See Sup. Ct. R. 13.5. This Court has jurisdiction under 28
U.S.C. § 1257 to review this case.

BACKGROUND
As explained in the first application, this case presents an important question
about federal immigration law that has divided state courts of last resort. Over the
dissent of two justices, the Supreme Court of Kentucky held that federal law does not
require state courts to make special immigrant juvenile status findings, but that
family courts in Kentucky are permitted to make such findings when they deem it to
be in the best interests of a child.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be further extended for
28 days, to November 8, for several reasons.
First, although petitioners endeavored to prepare the petition by October 11,
the press of other matters has made preparation of the petition impossible, and
warrants an additional extension of time. In addition to this petition, counsel for
petitioners is currently preparing a certiorari-stage amicus brief in Capital
Associated Industries, Inc. v. Stein, No. 19-281 (due October 3), a merits amicus brief
in a capital case in the Supreme Court of Nevada (State v. Vanisi, No. CR98-0516,
also due October 3), an opposition to a motion to dismiss in federal district court
(United States ex rel. Silbersher v. Jannsen Biotech Inc., et al, No. 19-cv-12107-KMJBC (D.N.J), due October 14), a petition for a writ of certiorari (due October 25), oral
argument on a dispositive motion in federal district court (United States ex rel.
Silbersher v. Allergan PLC, No. 18-CV-03018-JCS (N.D. Cal.), also October 25), an

2

amicus brief in the D.C. Circuit (Blumenthal v. Trump, No. 19-5237, due October 29),
and providing advice in two other, non-public matters.
Second, no prejudice is likely to result from the extension. Whether the
extension is granted or not, the petition could still be considered during this Term—
and, if the petition were granted, the case could be heard and decided during this
Term.
Finally, as explained in the first application, the petition is likely to be granted.
This case presents an important question that affects tens of thousands of
immigrants, and as the Supreme Court of Kentucky acknowledged, various state
approaches to this federal legal issue diverge in outcome-determinative ways.
CONCLUSION
For the foregoing reasons, the time to file a petition for a writ of certiorari
should be extended for 28 days to and including November 8, 2019.
Respectfully submitted,

_______________________________
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com

Dated: September 30, 2019

3

APPENDIX A

App. No. ___
________________________________

In the Supreme Court of the United States
________________________________
NELIDA MARIBEL DIAZ JUAREZ AND NALBERTA BRAVO DIAZ,
Petitioners,
v.
COMMONWEALTH OF KENTUCKY, CABINET OF HEALTH AND FAMILY SERVICES
Respondents.
________________________________
APPLICATION TO EXTEND TIME TO FILE PETITION FOR A WRIT OF
CERTIORARI FROM SEPTEMBER 11, 2019 TO OCTOBER 11, 2019
________________________________
To the Honorable Justice Sotomayor:
Pursuant to 28 U.S.C. § 2101(c) and Supreme Court Rules 13.5, 22, and 30,
petitioners Nelida Maribel Diaz Juarez and Nalberta Bravo Diaz respectfully request
that the time to file a petition for a writ of certiorari in this case be extended for 30
days to and including October 11, 2019. The Supreme Court of Kentucky rendered its
opinion on June 13, 2019. See App. A, infra. Absent an extension of time, the petition
would be due on September 11, 2019. Petitioners are filing this application more than
ten days before that date. See Sup. Ct. R. 13.5. This Court has jurisdiction under 28
U.S.C. § 1257 to review this case.
BACKGROUND
This case presents an important question about federal immigration law that
has divided state courts of last resort. Under federal law, an immigrant under the
age of 21 can obtain special immigrant status if she is:

(J) an immigrant who is present in the United States—
(i) who has been declared dependent on a juvenile court located in the United
States or whom such a court has legally committed to, or placed under the
custody of, an agency or department of a State, or an individual or entity
appointed by a State or juvenile court located in the United States, and whose
reunification with 1 or both of the immigrant’s parents is not viable due to
abuse, neglect, abandonment, or a similar basis found under State law;
(ii) for whom it has been determined in administrative or judicial proceedings
that it would not be in the alien’s best interest to be returned to the alien’s or
parent’s previous country of nationality or country of last habitual residence;
and
(iii) in whose case the Secretary of Homeland Security consents to the grant of
special immigrant juvenile status, except that—
(I) no juvenile court has jurisdiction to determine the custody status or
placement of an alien in the custody of the Secretary of Health and
Human Services unless the Secretary of Health and Human Services
specifically consents to such jurisdiction; and
(II) no natural parent or prior adoptive parent of any alien provided
special immigrant status under this subparagraph shall thereafter, by
virtue of such parentage, be accorded any right, privilege, or status
under this chapter.
8 U.S.C. § 1101(a)(27)(J); see also 8 C.F.R. § 204.11 (regulation implementing these
requirements). Special immigrant juvenile status, also known as “SIJS,” is a path to
permanent legal residency.
This provision of federal law is unusual in that SIJS is granted by the federal
government, but the required factual findings must first be made by state courts or
administrative agencies.
In this case, petitioner Nalberta Bravo Diaz filed a dependency petition in
Kentucky Family Court on behalf of petitioner Nelida Maribel Diaz Juarez, who at

2

the time was under the age of eighteen.* In connection with the petition, Nalberta
and Nelida sought the required SIJS findings. The Family Court determined that it
lacked jurisdiction to make those findings, and the Court of Appeals reversed, holding
that Family Courts are required to make such findings upon request.
In a divided decision, the Supreme Court of Kentucky reversed that decision.
The court held that the federal statute does not require state courts to make SIJS
findings, App. A, at 8, but that family courts in Kentucky are permitted to make such
findings when they deem it to be in the best interests of a child, id. at 9-10. The court
noted that its decision is consistent with recent decisions from several other states.
Id. at 4-6. It acknowledged, however, that numerous other states require SIJS
factfinding, either by statute, or by judicial precedent. See id. at 10 & n.4-5. Applying
this rule, the court held that no SIJS findings were required in this case. See id. at
10.
Two justices dissented, explaining that “without the requisite SIJS findings by
a Kentucky court, undocumented immigrant children in Kentucky will be unable to
proceed with an application for SIJS and may possibly face deportation. It is not an
exaggeration to say that that child’s immigration status hangs in the balance.” App.
A, at 13 (Minton, C.J., dissenting) (quotation marks omitted). “To ensure compliance
with the judiciary’s duty to dispose of juvenile cases according to the child’s best

*

Although Nelida is now older than eighteen, she has recommitted to the
custody of the Kentucky Cabinet of Health and Family Services until the age of
twenty-one and remains under the jurisdiction of the Family Court.
3

interest and to ensure that Kentucky does not shirk its duty in cooperative
federalism,” the dissent would “require Kentucky’s courts always to engage in SIJS
factfinding when an undocumented immigrant child is before the court in an action
involving a custodial arrangement.” Id. at 17.
The Supreme Court of Kentucky rendered its opinion on June 13, 2019, and
gave it a “final date” of July 9, 2019. App. A, at 1.
REASONS FOR GRANTING AN EXTENSION OF TIME
The time to file a petition for a writ of certiorari should be extended for 30 days,
to October 11, for several reasons.
First, petitioners only recently retained undersigned counsel for the filing of a
petition for a writ of certiorari before this Court. Additional time is necessary for
counsel to review the record in the case as well as the decisions of other state courts
of last resort in order to prepare a clear and concise petition for the Court’s review.
Second, no prejudice would result from the extension. Whether the extension
is granted or not, the petition will be considered during this Term—and, if the petition
were granted, the case could be heard and decided during this Term. Moreover, this
Application is being filed out of an abundance of caution based on the belief that the
deadline is September 11, but it may already be later. As noted above, the Supreme
Court of Kentucky gave its decision a “final date” of July 9, 2019. It is not clear
whether the judgment was “entered” before that date. If the due date is already later,
then clearly no prejudice would result from an extension.

4

Third, the press of other matters makes the submission of the petition difficult
absent an extension. Petitioners’ counsel is currently responsible for numerous
pending matters in the courts of appeals and this Court. These include:


Oral argument in Shatsky v. Palestine Liberation Organization, No. 177168 (D.C. Cir.), on September 9, 2019;



A petition for a writ of certiorari due on September 27, 2019; and



A certiorari-stage amicus brief due by September 30, 2019.

Finally, the petition is likely to be granted. This case presents an important
question that affects tens of thousands of immigrants, and as the Supreme Court of
Kentucky acknowledged, the various states’ approaches to this federal legal issue
diverge in outcome-determinative ways.
CONCLUSION
For the foregoing reasons, the time to file a petition for a writ of certiorari
should be extended for 30 days to and including October 11, 2019.
Respectfully submitted,

_______________________________
Tejinder Singh
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com
Dated: August 30, 2019

5

APPENDIX A

CORRECTED: JULY 17, 2019
RENDERED: JUNE 13, 2019
TO BE PUBLISHED

2018-SC-000592-DGE
COMMONWEALTH OF KENTUCKY,
CABINET FOR HEALTH AND FAMILY
SERVICES

V.

APPELLANT

ON REVIEW FROM COURT OF APPEALS
CASE NUMBER 2018-CA-000494
CAMPBELL CIRCUIT COURT NOS. 17-J-00422 and 17-J-00422-001

N.B.D.

APPELLEE

OPINION OF THE COURT BY JUSTICE D. LAMBERT

REVERSING

The Cabinet for Health and Family Services (hereinafter Cabinet) seeks
reversal of the Court of Appeals, which held that the Campbell Family Court
erred in declining to conduct a Special Immigrant Juvenile (hereinafter SIJ)

hearing at the disposition phase of a dependency, neglect and abuse case

regarding N.M.D.J. (hereafter N.), an unaccompanied Guatemalan child. After

thorough review, we reverse the Court of Appeals.
I. Facts
N. was bom in Guatemala in 2001 and will turn eighteen in July 2019.

She is now the mother of two infant children, having one child bom in 2017 in

Arizona and one child bom in 2018 in Kentucky. Only N.’s case is before us.

It is believed that her biological parents remain in Guatemala. They did not

participate directly in the dependency case filed below but were appointed
counsel. N. was also appointed counsel but neither her counsel, nor the
counsel for the parents have participated in the appellate process. N.B.D. is

the mother of N.’s boyfriend (M.). M. is likewise a minor and the father of N.’s
two children.
N.B.D., an adult resident of Newport, Kentucky, filed a dependency
petition in the Campbell County Family Court (the petition was signed June 20,

2017, but not filed until August 16, 2017) alleging the following:
N. is an unaccompanied minor from Guatemala who is
in removal proceedings with DHS1. She was released to
her cousin’s custody. The cousin lives out of state. N.
had a child on January 24, 2017. Her cousin made
her pay for everything for her and the child. My son,
M., is the father of the child. N. could not pay to live
with her cousin and she came here to live with me and
my son. She is afraid to return to Guatemala. She
and M. were on vacation in Mexico when they were
kidnapped. The kidnappers held them in a house.
There was a lot of blood in the house. I paid $3000 for
their release. When they released them, they put
covers on their heads and took them to the U.S. border
and told them not to return to Guatemala. They had
both M. and N.’s (Petition ends abruptly at this point).

As N.B.D. requested, temporary custody of N. was placed with her at the
first court appearance. The Court also ordered the Cabinet to become involved

to offer services to N. After a couple of pretrial appearances, an adjudication
hearing was set for December 20, 2017. At the end of the adjudication

1 Department of Homeland Security.

2

hearing, the court found that the child was dependent as there was no legal

custodian present and set the disposition hearing for January 31, 2018.
Meanwhile, N. gave birth to her second child on January 4, 2018. Two days

prior to the disposition hearing, N.B.D.’s counsel filed a motion to continue the
case, incorrectly alleging that the newborn was premature and that the child

remained in the hospital. Counsel also stated that two experts had been

retained to testify about the dangers to N. if she returned to Guatemala; and
that additional time was needed by counsel to permit the experts to interview

N. and “form an opinion.” The Cabinet objected to a continuance and the Court

overruled the motion, conducted the dispositional hearing, and adopted the

recommendations of the Cabinet to continue custody of N. with N.B.D.
In addition to completing the standard form order and docket sheet,

Judge Woeste entered a separate five-page order addressing his findings in
more detail, including the fact that U.S. immigration authorities had detained
both N. and M. in Arizona, and had temporarily placed them with a cousin in

Arizona pending the immigration proceedings. He noted that N. and M.
subsequently ran from that federal immigration placement to the home of
N.B.D. The Court also noted that N. had testified that she had come from

Guatemala with M. and while they were traveling through Mexico, they were

kidnapped by a gang.

The Court then addressed the motion for a continuance, the request for
the SIJ special findings, and the limits of its own jurisdiction to make SIJ
findings. The Court overruled the motion for a continuance because it was the
3

Court’s opinion that the testimony of experts regarding N.’s home country
would not be relevant as the child was to stay in Kentucky in the custody of
N.B.D., and therefore it was without the jurisdictional authority to undertake
SIJ findings because such findings were not relevant to the core dependency,
neglect, and abuse issues before the court.

II. Special Immigrant Juvenile Status under 8 U.S.C. Section 1101
(a)(27)(J) and the Role of State Courts

In de Rubio v. Rubio Herrera, 541 S.W.3d 564 (Mo. Ct. App. 2017), the

Missouri Court of Appeals addressed the jurisdiction of Missouri courts to
make SIJ findings in a dissolution case where the parents were both citizens of
El Salvador and the custody of the child was granted solely to the mother. The

mother wanted the court to enter an order that it would not be in the child’s
best interest to return to his home country with the father. Id. at 568-69. The
de Rubio Court discussed the statute, saying:

The federal Immigration and Nationality Act provides a
path for undocumented immigrant children who have
been abused, neglected, or abandoned to gain lawful
permanent residency in the United States by obtaining
Special Immigrant Juvenile status. In re Guardianship
of Guaman, 879 N.W.2d 668, 671-72 (Minn. App.
2016) (citing 8 U.S.C. § 110l(a)(27)(J); 8 CFR §
204.11). A child who obtains such status may become
a naturalized United States citizen after five years.
Eddie E. v. Superior Court, 234 Cal. App. 4th 319, 326,
183 Cal.Rptr.3d 773 (Cal. App. 2015).

This process was established in 1990, when Congress
amended the Act to include the definition of “Special
Immigrant Juvenile” (“SIJ”) in 8 U.S.C. §
1101(a)(27)(J). Recinos v. Escobar, 473 Mass. 734, 46
N.E.3d 60, 63 (2016). The 1990 definition required (1)
4

a finding by a state court that the child is “dependent
on a juvenile court” and eligible for long-term foster
care, and (2) a finding that it is “not in the child's best
interests to return to his or her country of origin.” Id.
at 64. In 1997, Congress modified the definition to
include a child who had been “legally committed to, or
placed under the custody of, an agency or department
of a State” and required that eligibility for long-term
foster care be “due to abuse, neglect, or
abandonment.” Id.

Id. at 569-70 (footnotes omitted).
On appeal, the mother argued the circuit court erred by not making the
findings required for SIJ status. Id. at 571. The Court found no error based on

the fact that Missouri does not have a statute or legal precedent requiring a
court to issue special findings of fact to qualify a juvenile for SIJ status. Id. at
571-72. Nor does the federal statute itself require a state to make those

findings. Id. at 571. The Court acknowledged that a court is permitted to

make those findings, but the obligation to do so arises solely from a court’s
duty to act in the child’s best interest. Id. at 573. Ultimately, the court held:

Our reading of the SIJ statute is in accordance with the
analysis in [Canales v. Torres Orellana, 800 S.E.2d 208
(Va. Ct. App. 2017)], which is consistent with the idea
that federal law cannot mandate a state court to
make findings but may rely on state courts in the
proper circumstances to make such findings that
are in a child's best interest and required of the court
while in the position of in loco parentis.

Id. (emphasis added).
The case cited by the de Rubio opinion, Canales v. Torres Orellana, 800
S.E.2d 208 (Va. Ct. App. 2017), came to the same well-reasoned conclusion. In

5

Canales, mother and father were both Honduran. Id. at 212. When the child

was two, the mother immigrated to the United States and left the child in the
care of the child’s grandmother in Honduras. Id. Nine years after immigrating,

when the child was in the United States, the mother petitioned the juvenile

court to grant her sole custody and make specific factual findings that the child
had been “abused” and “abandoned” by the child’s father, as those are the

terms used in the SIJ statute. Id. 212-13. The father at all times lived in

Honduras and his whereabouts were unknown. Id. The juvenile court granted
sole custody to the mother but declined to make the specific SIJ findings. Id.

The mother then appealed to the Circuit Court. Id. The Circuit Court also
granted the mother sole custody, but declined to make the specific SIJ
findings, believing it “did not have jurisdiction to make findings as to [SIJ]

petitions[,] as such authority is not set forth in the Code of Virginia.” Id.

The Virginia Court of Appeals agreed with the circuit court, holding:

the SIJ statute does not request, much less order, state
courts to make specific, separate SIJ findings; rather, it
allows the appropriate federal entities to consider a
state court's findings of fact, as recorded in a judgment
order rendered under state law, when determining
whether an immigrant meets the SIJ criteria. In other
words, the SIJ definition only lists certain factors which,
if established in state court proceedings, permit a
juvenile immigrant to petition the United States
Citizenship and Immigration Services (“USCIS”) of the
Department of Homeland Security for SIJ status—8
U.S.C. § 1101(a)(27)(J) does not require that the state
court make such findings or convey jurisdiction upon
them to do so.

Id. at 217.

6

In this case, N.B.D. requested the extra finding by the trial court to start
the process of qualifying the child for Special Immigrant Juvenile status under

8 U.S.C Section 1101(a)(27)(J).

Under the Immigration and Naturalization Act, a “special immigrant”

juvenile is defined as follows:
(27) The term “special immigrant” means—

[-.]

(J) an immigrant who is present in the United States—

(i) who has been declared dependent on a juvenile
court located in the United States or whom such a
court has legally committed to, or placed under the
custody of, an agency or department of a State, or an
individual or entity appointed by a State or juvenile
court located in the United States,

and whose reunification with 1 or both of the
immigrant’s parents is not viable due to abuse,
neglect, abandonment, or a similar basis found under
State law;

(ii) for whom it has been determined in administrative
or judicial proceedings that it would not be in the
alien’s best interest to be returned to the alien’s or
parent’s previous country of nationality or country of
last habitual residence; and
(iii) in whose case the Secretary of Homeland Security
consents to the grant of special immigrant juvenile
status, except that—
(I) no juvenile court has jurisdiction to determine the
custody status or placement of an alien in the custody
of the Secretary of Health and Human Services unless
the Secretary of Health and Human Services
specifically consents to such jurisdiction; and

(II) no natural parent or prior adoptive parent of any
alien provided special immigrant status under this
subparagraph shall thereafter, by virtue of such
7

parentage, be accorded any right, privilege, or status
under this chapter;
8 U.S.C. § 1101 (a)(27)(J).

Nothing contained in the Immigration and Nationality Act directs a state

court to take any additional steps beyond carrying out their duties under state
law. In fact, the United States Citizenship and Immigration Services (“USCIS”)

Policy Manual states as follows:
USCIS must review the juvenile court order to
conclude that the request for SIJ classification is bona
fide, which means that the juvenile court order was
sought to obtain relief from abuse, neglect,
abandonment, or a similar basis under state law, and
not primarily or solely to obtain an immigration
benefit. The court ordered dependency or custodial
placement of the child is the relief being sought from
the juvenile court.

USCIS Policy Manual, Vol. 6, Part J, ch. 2 (D)(5), 2017 WL 443003

(footnote omitted).
The Policy Manual also recognizes that the federal law does not

specifically direct the states to undertake a SIJ classification hearing.

“There

is nothing in the USCIS guidance that should be construed as instructing
juvenile courts on how to apply their own state law.” USCIS Policy Manual, Vol.
6, Part J, ch.2 (D)(4), 2017 WL 443003. Rather the Manual directs state courts

only to follow state laws as to when to exercise their authority, and to use their

own evidentiary rules and due process guidelines in deciding whether to

undertake a SIJ review. USCIS Policy Manual, Vol 6, Part J, ch. 3(A)(2), 2017
WL 443004.

8

III. Jurisdiction of Kentucky Courts in

Dependency, Neglect and Abuse Cases
Here, N. met the first of the dependency and placement requirements,
but the Court found that it did not have the authority under state statutes to

make the requested additional SIJ findings. The Family Court has jurisdiction
via KRS2 23A.100(2)(c) and KRS 6203 to handle dependency, neglect and abuse
actions and to make findings as to the best interest of the child. Clearly, N., as

an unaccompanied minor child, whose parents are believed to be residents of

Guatemala, is a dependent child and is entitled to the protection and care of

the Commonwealth of Kentucky via KRS Chapter 23A. 100. The ultimate
question presented here is whether the Family Court must make additional
findings relevant to the child’s SIJ classification, upon request, in every such
case. We hold that the courts of Kentucky are not required to make additional

2 Kentucky Revised Statutes.
3 620.023 Evidence to be considered in determining the best interest of a
child. (1) Evidence of the following circumstances if relevant shall be considered by
the court in all proceedings conducted pursuant to KRS Chapter 620 in which the
court is required to render decisions in the best interest of the child: (a) Mental illness
as defined in KRS 202A.011 or an intellectual disability as defined in KRS 202B.010 of
the parent, as attested to by a qualified mental health professional, which renders the
parent unable to care for the immediate and ongoing needs of the child; (b) Acts of
abuse or neglect as defined in KRS 600.020 toward any child; (c) Alcohol and other
drug abuse, as defined in KRS 222.005, that results in an incapacity by the parent or
caretaker to provide essential care and protection for the child; (d) A finding of
domestic violence and abuse as defined in KRS 403.720, whether or not committed in
the presence of the child; (e) Any other crime committed by a parent which results in
the death or permanent physical or mental disability of a member of that parent's
family or household; and (f) The existence of any guardianship or conservatorship of
the parent pursuant to a determination of disability or partial disability as made under
KRS 387.500 to 387.770 and 387.990. (2) In determining the best interest of the child,
the court may consider the effectiveness of rehabilitative efforts made by the parent or
caretaker intended to address circumstances in this section.

9

findings related to SIJ classification unless the court first determines that the

evidence to be gleaned from such a supplemental hearing is relevant to the
child’s best interests. We agree with the family courts’assessment of the

jurisdictional statutes and agree that our General Assembly has not specifically
directed Kentucky’s courts to make SIJ findings.4 Some state courts have held

that their jurisdiction was sufficient without the legislature enacting more

specific statutes addressing SIJ classification findings.5
We agree with the findings of Judge Woeste that “[s]uch a hearing is

unnecessary where the Court has found that the child is dependent and that
the present custodial arrangements are appropriate to serve the best interests

of the child.” However, we hold that under proper circumstances, where such

a placement of the child back into the country where he or she was abused,

neglected or abandoned is being considered by the state court, the courts of
Kentucky are empowered under KRS 620.023 and other statutes which grant
authority to determine custody or placement of a child, to make additional

findings to determine whether it would be in the child’s best interest to return
to his or her native country. In this case, where N.B.D. acknowledges in her
initial petition that N. was “in removal proceedings with DHS” and the child’s

4 Some state legislatures have amended their statutes to direct courts to make
SIJ determinations. See, e.g., Fla. Stat. Ann. Section 39.5075(4) (West 2005), Md.
Code Ann. Fam. Law, Section 1-201(a) and (b)(1), and N.Y. Fam. Ct. Act Section 661(a).
5 See, e.g., Matter of Guardianship of Luis, 114 N.E.3d 855 (Ind. Ct. App. 2018);
Guardianship ofPenate, 76 N.E.3d 960 (Mass. 2017); Florida Dep’t of Children and
Families, 215 So. 3d 1219 (Fla. 2017); In re Guardianship ofGuaman, 879 N.W.2d 668
(Minn. Ct. App. 2016); H.S.P. v. J.K., 121 A.3d 849 (N.J. 2015); and In the interest of
J.J.X.C., 734 S.E.2d 120 (Ga. Ct. App. 2012).

10

testimony confirms that she and M. ran from the Arizona home where they had

been placed by immigration authorities, there are also grave concerns about

the use of the juvenile process by N.B.D. to circumvent federal immigration

law. The Supremacy Clause of the U.S. Constitution prohibits states from
resolving immigration hearings.6 Rather, the proper place for such expert
evidence in this case is not in any state court, but in federal immigration court.

For the foregoing reasons, we reverse the Court of Appeals.
All sitting. Buckingham, Keller, Lambert, and Wright, JJ., all concur.

VanMeter, JJ., concurs in result only. Minton, C.J. dissent by separate
opinion in which Hughes, J., joins.
MINTON, C.J., DISSENTING: I agree with the majority’s recognition that

Kentucky courts have jurisdiction to make Special Immigrant Juvenile Status
(“SIJS”) findings. But I must respectfully dissent from the majority’s holding

that our trial courts are not required to engage in SIJS factfinding. I fear the
majority signals a reluctance on the part of our state courts in Kentucky to

engage fully in the collaborative process established by federal law to protect

the welfare of undocumented immigrant children. And this holding, in my view,
subverts the overarching duty of our courts to guard the best interests of all

children who come before us.

The United States Supreme Court “has long made clear that federal law

is as much the law of the several States as are the laws passed by their6

6 U.S. Const, art. VI, cl. 2.

11

legislatures. Federal and state law ‘together form one system of jurisprudence,

which constitutes the law of the land for the State; and the courts of the two
jurisdictions are not foreign to each other, nor to be treated by each other as

such, but as courts of the same country, having jurisdiction partly different
and partly concurrent.”’7
The jurisdictions identified by the majority that require their state courts

to engage in SIJS factfinding whenever an undocumented immigrant child is
before them in a dependency, neglect, and abuse (“DNA”) action, even in the
absence of a state statutory mandate to do so, recognize the collaborative

responsibility of their state courts to engage in SIJS factfinding.8
Federal law leaves to state courts the responsibility of deciding family law

matters: “The whole subject of the domestic relations of husband and wife,
parent and child, belongs to the laws of the states, and not to the laws of the

7 Haywood v. Drown, 556 U.S. 729, 734-35 (2009) (quoting Claflin v. Houseman, 93
U.S. 130, 136-37 (1876)).

8 See, e.g., H.S.P. v. J.K., 121 A.3d 849, 852 (N.J. 2015) (“[Family courts] play[] a
critical role in a minor immigrant’s attempt to obtain SIJ status[.] . . . The [family
court’s] role in the SIJ process is ... to apply its expertise in family and child welfare
matters to the issues raised in 8 C.F.R. § 204.11 [.] . . . This approach will provide
USCIS with sufficient information to enable it to determine whether SIJ status should
be granted or denied[.]”); In re Guardianship of Guaman, 879 N.W.2d 668, 671 (Minn.
App. 2016) (“Congress charged state courts with making SIJ findings because it
‘recogniz[ed] that juvenile courts have particularized training and expertise in the area
of child welfare and abuse, which places them in the best position to make
determinations on the best interests of the child and potential or family
reunification.’”) (quoting In re Hei Ting C., 109 A.D.3d 100 (N.Y. 2013)); Guardianship
ofPenate, 76 N.E.3d 960, 966 (Mass. 2017) (“Congress delegated [SIJS factfinding] to
State courts because it recognized ‘the distinct expertise State courts possess in the
area of child welfare and abuse,’ which makes them best equipped to shoulder ‘the
responsibility to perform a best interest analysis and to make factual determinations
about child welfare for purposes of SIJ eligibility.’”) (quoting Recinos v. Escobar, 46
N.E.3d 60, 65 (Mass. 2016)).

12

United States.”9 Recognizing the proficiency of state courts’ handling of family

law issues, while at the same time recognizing the proficiency of federal

authorities’ handling of immigrant issues, the federal government, in
furtherance of the idea of cooperative federalism, has entrusted to state courts

the duty to make certain preliminary findings that bear on an undocumented
immigrant child’s ability to seek custody in the care of an individual or entity in
the United States.

As the majority recognizes, the federal government has charged, but not

mandated, state courts with making certain findings pertaining to an
undocumented immigrant child’s SIJS. “Only once a state juvenile court has

issued [the requisite] factual predicate order may the child, or someone acting
on his or her behalf, petition the [USCIS] for SIJS.”10 “The process for obtaining
SIJ status is ‘a unique hybrid procedure that directs the collaboration of state

and federal systems.”’11 As the Court of Appeals noted in the case at hand,

without the requisite SIJS findings by a Kentucky court, undocumented
immigrant children in Kentucky will be unable to proceed with an application
for SIJS and may possibly face deportation. It is not an exaggeration to say that

that child’s “immigration status hangs in the balance.”12

9 Ex parte Burrus, 136 U.S. 586, 593-94 (1890).
10 In re Enis A.C.M., 152 A.D.3d 690, 692 (N.Y. App. Div. 2017) (quoting Matter of
Marisol N.H., 115 A.D.3d 185, 188-89 (N.Y. App. 2014)).
11 Recinos v. Escobar, 46 N.E.Sd 60, 64 (Mass. 2016) (quoting H.S.P. v. J.K., 121 A.3d
849 (N.J. 2015); Matter of Marisol N.H., 115 A.D.3d 185, 188 (N.Y. 2014)).

12 In re J.J.X.C., 734 S.E.2d 120, 124 (Ga. Ct. App. 2012).

13

The requisite factual predicate to obtain SIJS is contained in 8 U.S.C. §
1101(a)(27)(J) and 8 C.F.R. 204.11. The statute, 8 U.S.C. § 110l(a)(27)(J),

states the following, in relevant part:
The term “special immigrant” means an immigrant who is present
in the United States—
(i)

Who has been declared dependent on a juvenile court
located in the United States or whom such a court has
legally committed to, or placed under the custody of, an
agency or department of a State, or an individual or entity
appointed by a State or juvenile court located in the United
States, and whose reunification with 1 or both of the
immigrant’s parents is not viable due to abuse, neglect,
abandonment, or a similar basis found under State law;
[and]

(ii)

For whom it has been determined in administrative or
judicial proceedings that it would not be in the alien’s best
interest to be returned to the alien’s or parent’s previous
country of nationality or country of last habitual residence[.]

8 C.F.R. § 204.11 states the following, in relevant part:

An alien is eligible for classification as a special immigrant... if
the alien: . . .
(1) [i]s under twenty-one . . . ;
(2) [i]s unmarried;

(3) [h]as been declared dependent upon a juvenile court... in
accordance with state law governing such declarations of
dependency ...;
(4) [h]as been deemed eligible by the juvenile court for long-term
foster care;
(5) continues to be dependent upon the juvenile court and
eligible for long-term foster care . . . ; and
(6) [h]as been the subject of judicial proceedings or
administrative proceedings authorized or recognized by the
juvenile court in which it has been determined that it would not
14

be in the alien’s best interest to be returned to the country of
nationality or last habitual residence of the beneficiary or his or
her parent or parents[.]”

“[']Juvenile court[’] means a court located in the United States having
jurisdiction under State law to make judicial determinations about the custody
and care of juveniles[.]”13 In Kentucky, those courts are the circuit family
courts or the juvenile session of the district court in circuits where there is no

family court division of circuit court.

Under KRS 620.023(1), in a DNA action, “the court is required to render
decisions in the best interest of the child[.]” The “best interest of the child”

standard is the hallmark of Kentucky family law decision making, and
Kentucky’s courts have a responsibility to dispose of a case according to the

“best interest of the child.”

When an undocumented immigrant child appears before a Kentucky
court of competent jurisdiction in a DNA action, there are essentially three

potential scenarios that could occur: 1) the court engages in SIJS factfinding,
determining that it is not in the child’s best interests to be returned to the
custody of his or her parents or native homeland; 2) the court engages in SIJS
factfinding, determining that it is in the child’s best interests to be returned to

the custody of his or her parents or native homeland; or 3) the court does not
engage in SIJS factfinding at all, disposing of the case as it sees fit.

13 8 U.S.C. § 204.11(a).

15

In the first suggested scenario, the trial court engages in SIJS fact

finding, determining that it is not in the child’s best interests to be returned to
the custody of his or her parents or native homeland. The trial court’s only real

option is to place the child in the custody of an individual or entity within the
United States. And, because the trial court has engaged in explicit SIJS

factfinding, it has ensured that the child can petition the federal government
for SIJS without which the child would be subject to deportation. Deportation

is—under this scenario—the exact situation that the trial court explicitly found

would not be in the child’s best interests. The trial court has fulfilled its duty to
dispose of the child’s case according to that child’s best interest.
In the second scenario, the trial court engages in SIJS factfinding,
determining that it is in the child’s best interest to be returned to the custody

of his or her parents or native homeland. Although the trial court has
determined that deportation is in the child’s best interest, only the federal
government has the power to ensure that deportation occurs. In this manner,

the trial court has nevertheless fulfilled its responsibility to dispose of the case
according to the child’s best interest because it has supplied the federal
government with the information it needs to deport the child, the exact

situation that the trial court has determined would be in the child’s best
interest.
A variation of the final scenario is the one presented to this Court in the

case at hand. Here, as the majority notes, the trial court “found that the child

is dependent and that the present custodial arrangements are appropriate to
16

serve the best interests of the child,” the “present custodial arrangements”
being the placement of the child in the custody of the child’s boyfriend’s mother
here in Kentucky. Because the trial court concluded in this way, the trial court

found engaging in SIJS factfinding to be “unnecessary.”
But without the requisite SIJS factfinding that the trial court refused to

engage in, this child cannot petition the federal government for SIJS to prevent
deportation. This result is contrary to the trial court’s conclusion that “the
present custodial arrangement[],” i.e. custody in the hands of an individual in

the U.S., is in the child’s best interest. It is impossible for the trial court to
assuredly say that it fulfilled its duty to dispose of the case in furtherance of
the child’s best interest because the family court not only allowed but created

the risk of a different outcome for this child—deportation. And that outcome is
directly contrary to the trial court’s finding that placement of the child in the

care of an individual or entity within the U.S. is in the child’s best interest.
To ensure compliance with the judiciary’s duty to dispose of juvenile

cases according to the child’s best interest and to ensure that Kentucky does

not shirk its duty in cooperative federalism, I would require Kentucky’s courts
always to engage in SIJS factfinding when an undocumented immigrant child

is before the court in an action involving a custodial arrangement. I would
affirm the Court of Appeals and remand this case to the trial court with
instructions to engage in SIJS factfinding.

Hughes, J. joins.

17

COUNSEL FOR APPELLANT:

Thomas Edison Edge
Assistant Campbell County Attorney
COUNSEL FOR APPELLEE:
Teresa Lyn Cunningham
Burlington, Kentucky

18

2018-SC-000592-DGE
COMMONWEALTH OF KENTUCKY,
CABINET FOR HEALTH AND FAMILY
SERVICES

V.

APPELLANT

ON REVIEW FROM THE COURT OF APPEALS
CASE NO. 2018-CA-000494-MR
CAMPBELL CIRCUIT COURT NOS. 17-J-00422 AND 17-J-00422-001

N.B.D.

APPELLEE

ORDER CORRECTING
The Opinion of the Court by Justice Lambert rendered June 13, 2019 is

corrected and the attached opinion is hereby substituted in lieu of the original
opinion. Said correction does not affect the holding of the original opinion
rendered by the Court.
ENTERED: July 17. 2019.

